U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  PUBLIC
                 RELEASE


              INTERNATIONAL TRADE
                   ADMINISTRATION

      U.S. and Foreign Commercial Service
              Is Addressing Foreign Service
             Personnel Management Issues

     Audit Report No. BTD-10829-9-0001 / September 1999




        Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                                   Final Report BTD-10829
Office of Inspector General                                                                                           September 1999

                                                   TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          I.         Several Personnel Issues Warrant Management’s Attention . . . . . . . . . . . . . . . . . 8

                     A.         Formal recruitment policy still needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
                     B.         Changes needed in assignments and bidding process . . . . . . . . . . . . . . . . 9
                     C.         Curtailments not adequately documented . . . . . . . . . . . . . . . . . . . . . . . . . 12
                     D.         Recruitments should address language requirements . . . . . . . . . . . . . . . . 14
                     E.         Diversity among commercial service officers is a major priority . . . . . . . 15
                     F.         US&FCS should streamline personnel functions . . . . . . . . . . . . . . . . . . . 16
                     G.         Improved performance measures needed . . . . . . . . . . . . . . . . . . . . . . . . . 17
                     H.         Limited appointments still needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                     I.         Training task force led to new institute,
                                but language needs not addressed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                     J.         Changes in performance appraisal process recommended . . . . . . . . . . . . 19
                     K.         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                     L.         ITA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
                     M.         OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

          II.        Economic Basis for Domestic Resource Allocation Under Review . . . . . . . . . . . 24

                     A.         US&FCS applied revised Overseas Resource Allocation Model to
                                reallocate positions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   24
                     B.         Allocation of domestic resources under review . . . . . . . . . . . . . . . . . . . . .                      25
                     C.         Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       27
                     D.         ITA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   27
                     E.         OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     27
U.S. Department of Commerce                                           Final Report BTD-10829
Office of Inspector General                                                   September 1999

Appendices

I.     OIG Questionnaire on the Foreign Service Personnel System: Questions and Summary
       Responses

II.    ITA’s Response to Draft Report
U.S. Department of Commerce                                                        Final Report BTD-10829
Office of Inspector General                                                                September 1999

                                     EXECUTIVE SUMMARY

The Omnibus Trade and Competitiveness Act of 1988 directs the Office of Inspector General to
conduct periodic audits of the U.S. and Foreign Commercial Service (US&FCS) and to report to
the Congress the results of such audits. The act specifies that the audits are to include an
evaluation of US&FCS’s management of its foreign service personnel system and the placement
of domestic- and foreign-based personnel. This report presents our latest review of US&FCS’s
management of the personnel system and its resource allocation methodology. The act also
specifies that the OIG will review US&FCS’s program to integrate the domestic civil service and
foreign service personnel systems. This program was recently reviewed by another OIG unit.1

US&FCS is the primary federal organization responsible for promoting and facilitating the export
of goods and services of U.S. businesses. US&FCS provides export assistance to U.S.
companies through a network of domestic and overseas field offices. US&FCS officials are
responsible for determining levels of financial and personnel resources required, based in part on
US&FCS’s overseas and domestic resource allocation models, and monitoring program
implementation overseas.

Our review of US&FCS’s foreign service personnel system evaluated a broad range of personnel
issues, including the management and oversight of the personnel system, recruitment,
assignments, limited appointments, tours of duty, curtailments, and performance appraisals. Our
review also looked at the status of US&FCS’s overseas and domestic resource allocation models.
These models have served as the basis for the allocation of US&FCS’s resources.

As part of our evaluation, we sent a questionnaire to all foreign service officers in the US&FCS
and interviewed a number of officers during their rotation through headquarters. Our survey
questionnaire, developed in consultation with senior and cognizant US&FCS personnel, provided
additional insight into the foreign service personnel system. Although only 32 percent of the
officers responded to our questionnaire, we believe that the responses are representative of the
various grade levels and regions of US&FCS’s foreign service. A summary of the responses is
attached to this report as Appendix I.

US&FCS management is generally striving to address its personnel issues. And, while US&FCS
has addressed most personnel issues highlighted in previous OIG reports and other personnel
matters, several areas still need improvement.



        1
         Management Improvements Needed to Better Prepare for the Export Challenges of the 21st Century,
Report Number IPE-9904, March 1999, pages 15-19.


                                                     i
U.S. Department of Commerce                                                  Final Report BTD-10829
Office of Inspector General                                                          September 1999

l      In a prior audit report, we recommended that the Director General develop and implement
       a formal mid-level career candidate recruitment policy that includes a clear statement on
       the candidate selection process. However, US&FCS officials were unable to provide us
       with a copy of a formal recruitment policy. To preclude any perception that US&FCS
       may not follow the rank order candidate selection process, a formal career candidate
       recruitment policy should be developed and implemented (see page 8).

l      The Foreign Service Act of 1980 states that US&FCS should seek to assign FSOs to duty
       within the United States at least once every 15 years. Due to the significant number of
       FSOs who will have exceeded the 15-year period by the end of their current tours and the
       Under Secretary’s intention to downsize FSO positions at headquarters, US&FCS will
       have difficulty adhering to the 15-year guideline. Also, certain positions in hardship posts
       have been difficult to fill. US&FCS has introduced new bidding procedures requiring
       officers who have not had domestic or hardship assignments to submit bids on such
       assignments. If these new procedures are adopted and enforced, they should enable
       US&FCS to minimize vacancies in hardship posts. However, we believe US&FCS will
       still have difficulty adhering to the 15-year guideline (see page 9).

l      US&FCS officials consider the use of tour-of-duty curtailments vital to their efforts to
       maintain a high level of commercial expertise in high priority posts. Unlike other foreign
       service organizations, US&FCS does not have a substantial percentage of officers in
       domestic assignments available for assignment overseas. The easing of FTE limitations
       and increases in the number of career candidates hired could enable US&FCS
       management to reduce the number of curtailments in the future, an important goal since
       curtailments are costly and inefficient. We also found that the reasons for curtailments
       were not being adequately documented by US&FCS officials (see page 12).

l      US&FCS continues to waive or lower language proficiency requirements to allow officers
       who do not meet them to fill assignments when no career or career-candidate bidders
       meet existing requirements. US&FCS should increase its emphasis on recruiting for
       language-designated positions that have been difficult to fill (see page 14).

l      Despite an earlier recommendation by the OIG, US&FCS has not implemented a
       comprehensive automated system to maintain personnel data in the Office of Foreign
       Service Personnel (OFSP). Much of the personnel work is still done manually, and it is
       difficult to obtain consistent information. US&FCS should implement a comprehensive
       automated administrative personnel system in OFSP (see page 16).

l      ITA and US&FCS have not consolidated personnel functions and operations that are
       common to both the foreign service and civil service employees that would potentially


                                                ii
U.S. Department of Commerce                                                 Final Report BTD-10829
Office of Inspector General                                                         September 1999

       allow for greater efficiencies and economies. As we highlighted in a prior OIG report,
       unique functions, such as assignment panels, selection boards, and commissioning and
       tenure boards, should remain in US&FCS, but savings can be realized through the
       consolidation of common functions (see page 17).

l      US&FCS management has not yet defined adequate performance measures for its foreign
       service personnel system. To comply with the Government Performance and Results Act
       of 1993, US&FCS management should develop and implement procedures for collecting
       and reporting performance measures that determine the level of productivity. US&FCS
       management should also establish performance goals that specifically define the results
       expected from its personnel operations (see page 17).

l      US&FCS continues to use overseas appointments of limited duration for which career
       officers are not available, although its use has declined substantially since FY 1992. We
       believe that limited appointments permit US&FCS management to respond quickly to
       rapidly changing conditions of world markets. As recommended in a prior OIG report,
       US&FCS assignment panels have documented the lack of qualified career candidates as
       the basis for limited appointments (see page 18).

l      Lack of adequate training has long been a concern of the OIG and the US&FCS staff.
       US&FCS officials responded to this concern by establishing a training task force. The
       primary result of the task force’s work was the development of a core curriculum for a
       Commercial Service Institute. However, the task force did not include certain training
       areas, including the language training needed by commercial officers (see page 19).

l      Some foreign service officers have expressed concerns that officers serving in ITA
       domestic positions suffer a disadvantage when appraised. These officers believe that the
       career integration program is not mentioned in the appraisal precepts, and that the
       appraisal precepts do not recognize differences in duties between foreign and domestic
       assignments. US&FCS established a task force to study the performance process, and it
       recommended a number of measures to improve the fairness of the appraisal process. In
       light of our other findings, the task force’s recommendations appear soundly based and
       viable (see page 19).

l      The General Accounting Office has initiated a review of US&FCS’s allocation of
       domestic resources. We plan to monitor this review. We believe that the Domestic
       Resource Allocation Model should be updated and an assessment made to determine if
       resources are appropriately allocated. We also believe that US&FCS should fully
       document the domestic resource allocation process (see page 25).



                                               iii
U.S. Department of Commerce                                                   Final Report BTD-10829
Office of Inspector General                                                           September 1999

This report contains recommendations on pages 21 and 27 to address these issues.

ITA’s response to our draft report generally agreed with our findings and recommendations. ITA
provided further information and clarifications in several areas, including US&FCS career-
candidate recruitment policy, justifications for tour curtailments, recruitment policies for language
proficiency, and the use of limited appointments. These comments and recommended changes
were considered and, where appropriate, are reflected in the final report. ITA also provided
information on actions started, or already completed, to address our recommendations. A copy
of ITA’s complete response is attached to this report as Appendix II.




                                                 iv
U.S. Department of Commerce                                                 Final Report BTD-10829
Office of Inspector General                                                         September 1999


                                       INTRODUCTION

The U.S. & Foreign Commercial Service is the primary federal organization responsible for
promoting and facilitating the export of goods and services of U.S. businesses. The goal of
US&FCS is to increase the level of American business involvement in the international
marketplace by encouraging and enabling U.S. companies to take full advantage of export
opportunities. US&FCS assists in achieving this by providing accurate and timely foreign market
research, trade finance-related information, and trade facilitation services to small and medium-
sized firms with export interest, capability, and management commitment.

US&FCS provides export assistance to U.S. companies through a network of domestic and
overseas field offices. Figure 1 shows the distribution of foreign service personnel from
September 1992 to April 1998. The foreign service personnel in domestic assignments in April
1998 include two officers assigned to multilateral banks in Washington.




Through its domestic field offices, US&FCS serves as the primary source of federal one-on-one
export counseling assistance for export-ready firms seeking to enter new overseas markets.
These Export Assistance Centers deliver the trade facilitation programs of the International Trade
Administration directly to U.S. exporters, providing a unique link to the information and
resources of US&FCS overseas posts. US&FCS’s Office of Domestic Operations develops
operations policies and procedures and monitors program implementation and field performance
measures. In March 1998, there were 320 employees in the domestic field offices, including 18
foreign service officers.

                                                1
U.S. Department of Commerce                                                  Final Report BTD-10829
Office of Inspector General                                                          September 1999


US&FCS overseas posts have a key role in identifying trade opportunities abroad for U.S.
products; counseling U.S. businesses, including providing information on sources of trade
finance; identifying potential overseas representatives for U.S. firms; developing foreign market
research and analysis of trade policy issues; advocating U.S. company interests in major overseas
projects, procurement, and market access issues; and organizing and managing U.S. trade
promotion events. In July 1998, foreign commercial service officers were stationed at 127 foreign
posts in 75 countries (an additional 18 posts were staffed by foreign service nationals or personal
services contractors).

Displayed below is US&FCS’s headquarters organizational structure during our review:

                              Figure 2: US&FCS Organization Chart




US&FCS’s Office of International Operations manages overseas field operations and determines
levels of financial and personnel resources required, based in part on the Overseas Resource
Allocation Model, and monitors program implementation overseas. The foreign service
personnel duties in US&FCS have been shared by two offices–the Office of Foreign Service
Personnel (OFSP) and Office of Human Resources Development (HRD.) OFSP is responsible
for most personnel functions, such as processing new or reassigned employees, administering the
personnel appraisal system, and administering officer and FSN training programs. HRD
coordinates the assignments and bidding process, communicating with officers about their bids
and consulting with assignment panel members. The US&FCS personnel offices are responsible
for building a highly motivated, well-trained corps of commercially oriented career officers,
selected through a competitive process.

                                    PURPOSE AND SCOPE

The Omnibus Trade and Competitiveness Act of 1988 directs the Commerce Office of Inspector
General to conduct periodic audits of the U.S. and Foreign Commercial Service and to report to
the Congress the results of such audits. The act specifies that the audits are to include an

                                                2
U.S. Department of Commerce                                                         Final Report BTD-10829
Office of Inspector General                                                                 September 1999


evaluation of US&FCS’s management of the personnel system and an evaluation of the
placement of domestic and foreign based personnel.

Our review of US&FCS’s foreign service personnel system evaluated a broad range of personnel
issues, including those specified in the act. We focused on the management and oversight of the
personnel system, including recruitment, assignments, limited appointments, tours of duty,
curtailments, and performance appraisal. We did not review US&FCS’s program to integrate the
domestic civil service and foreign service personnel systems, because it was covered in a recent
OIG inspection report.2

Our review also looked at the status of US&FCS’s overseas and domestic resource allocation
models. These models have served as initial planning tools for allocation of US&FCS’s
resources. Non-economic variables, such as administration priorities, are then considered by
senior US&FCS management to actually allocate resources.

To conduct our performance audit survey, we:

l       Reviewed and evaluated compliance with applicable laws, regulations, policies, and
        procedures, including (1) The Foreign Service Act of 1980, P.L. 96-465, (2) DAO 202-
        900, Foreign Service Personnel Management Manual, and (3) FCS Operations Bulletin
        93-53, Open Assignments Process.

l       Sent a questionnaire to all foreign service officers (FSOs), including those in domestic
        assignments. We received 80 responses, a 32 percent response rate. Our questionnaire
        addressed areas of concern in prior reviews, such as performance appraisals, assignments,
        recruitment, limited appointments, curtailments, and training. A summary of the
        responses is attached as Appendix I.

l       Interviewed US&FCS officials, FSOs, and officials from other foreign affairs agencies.

l       Examined selected files and records and reviewed other documentation.

Our audit was performed at US&FCS headquarters in Washington, D.C. The audit was
conducted in accordance with Government Auditing Standards, issued by the Comptroller
General of the United States, and under the authority of the Inspector General Act of 1978, as
amended, and Department Organization Order 10-13, dated May 22, 1980, as amended. We did


        2
        Management Improvements Needed to Better Prepare for the Export Challenges of the 21st Century, IPE-
9904, March 1999, pages 15-19

                                                     3
U.S. Department of Commerce                                                   Final Report BTD-10829
Office of Inspector General                                                           September 1999


not review in detail the effectiveness of internal controls because they were not directly related to
our audit objectives. We conducted sufficient tests of computer-generated data cited in the report
to verify that the data was reliable. Our field work was completed in January 1999.

                                         BACKGROUND

US&FCS is relatively small compared to other foreign affairs agencies. In 1998, the State
Department had 4,268 foreign service officers; the Agency for International Development had
1,141; and the United States Information Agency had 832. In April 1998, US&FCS had about
240 FSO’s. The agency closest in size to US&FCS is the Foreign Agricultural Service, which had
186 FSOs in January 1998. The average FSO grade level was the GS equivalent of
GS-14.04, only slightly greater than the FY 1992 GS equivalent of GS-13.97. Figure 3 shows the
US&FCS foreign service officer’s ranking structure in April 1998.




Senior Foreign Service

From FY 1992 until April 1998, the Senior Foreign Service staff in US&FCS increased from 25 to
36. The Senior Foreign Service (SFS) is comparable to the Senior Executive Service in the Civil
Service. During the same period, the total number of FSOs increased from 211 to 241, with most
of the increase in mid-level grades. SFS as a percentage of FSOs increased from 12.44 percent in
FY 1992 to 14.94 percent in April 1998. The percentage of FSOs in the Senior
Foreign Service in US&FCS is comparable to the percentages in other foreign affairs agencies
(see Figure 4).

                                                 4
U.S. Department of Commerce                                                 Final Report BTD-10829
Office of Inspector General                                                         September 1999




Trends in Foreign Service Staffing

Overseas staff is composed of FSOs, American administrative support staff, foreign service
nationals (FSNs), and personal service contractors (PSCs), who are generally hired at post. In
April 1998, there were 190 FSOs, 7 American support staff, 477 FSNs, and 521 PSCs. In July
1998, there were 127 foreign posts in 75 countries with FSOs (an additional 18 posts are staffed
by only FSNs or PSCs).

From September 1994 to April 1998, American staff increased by almost 5 percent, FSNs
decreased by 23 percent, and PSCs increased by 265 percent. Figure 5 shows the number of
American foreign service personnel, FSNs, and PSCs from September 1994 until April 1998.




                                                5
U.S. Department of Commerce                                                 Final Report BTD-10829
Office of Inspector General                                                         September 1999


US&FCS has achieved a net increase in the total number of American staff serving overseas,
despite having full-time equivalent (FTE) limitations imposed during fiscal years 1996 and 1997.
The increase was accomplished by decreasing the number of FSNs, which are included in FTEs
and significantly increasing the number of PSCs, which are not included in FTEs.

With the recent relaxation of previous FTE limitations, US&FCS has been able to increase its
FSOs within its budget authority. From September 1997 to the present, the number of FSOs
worldwide has increased from 239 to 258.




                                                6
U.S. Department of Commerce                                                   Final Report BTD-10829
Office of Inspector General                                                           September 1999


                              FINDINGS AND RECOMMENDATIONS

In general, we found that US&FCS management has strived to address personnel issues of
concern to US&FCS personnel, both foreign and domestic. Management has established internal
task forces, involving diverse groups of US&FCS employees, to address issues of particular
concern to US&FCS employees, both foreign and domestic. US&FCS management has also
taken action to comply with most prior OIG recommendations. However, while US&FCS
continues to have certain unique personnel needs, we found that it has still not adequately
documented these needs in policy or personnel directives.

The State Department, due to its historical, operational, and preeminent position in foreign affairs,
is often the standard by which other foreign service agencies are often assessed. However, the
US&FCS foreign service personnel system differs in many respects from the traditional State
Department system. In carrying out its responsibilities to increase U.S. exports through a foreign
service of specialized officers, the US&FCS has relied heavily on exceptions to the rules of the
1980 Foreign Service Act. For example, the US&FCS has used limited appointments far more
frequently than the Foreign Agricultural Service, the foreign service organization closest to it in
size. In addition, US&FCS uses a specialized mid-level-entry recruitment policy that differs from
the more traditional recruitment policy of the State Department. US&FCS foreign service
personnel operations have differed from other foreign service organizations in other areas, such
as assignments, bidding, curtailments, and tours of duty.

We also reviewed the status of US&FCS’s overseas and domestic resource allocation models.
These models have served as initial planning tools for allocation of US&FCS’s resources. Non-
economic variables, such as administration priorities, are then considered by senior US&FCS
management to actually allocate resources. We believe that US&FCS management has
developed a transparent, defensible methodology for assigning its foreign resources. At the time
of our review, the General Accounting Office was initiating a review of US&FCS’s allocation of
domestic resources. Thus, we have no current plans to evaluate US&FCS’s methodology for
allocating domestic resources, but will continue to monitor GAO’s review.




                                                 7
U.S. Department of Commerce                                                        Final Report BTD-10829
Office of Inspector General                                                                September 1999


I.      Several Personnel Issues Warrant Management’s Attention

A.      Formal recruitment policy still needed

As a 1992 OIG inspection report explained,3 US&FCS foreign service personnel policies for
recruitment do not conform with the State Department’s more traditional closed, bottom-entry
foreign service personnel system. US&FCS has been trying to develop a foreign commercial
service with specialized export promotion expertise. Its recruitment and hiring practices have
reflected this need for recruiting members with a high level of business experience, vital to the
success of US&FCS’s trade promotion mission. With such a highly specialized mission, it would
be difficult for US&FCS to depend exclusively on bottom-entry junior officers. In addition,
about 47 percent of US&FCS’s overseas posts are one-officer posts, which usually require more
experienced officers.

US&FCS Uses Assessment Panels for Mid-Level Recruitment

US&FCS has used assessment panels for mid-level recruitment. Based on the applications
received, the best qualified candidates are invited to participate in the assessment process, which
consists of a series of special tests. Each test is scored individually before a consensus rating is
determined. Weights are then assigned to the individual scores and a final weighted score is
computed. Finally, the scores are ranked by grade class to form the rank-order register. The
overseas assignments panel is required to use the register to select new mid-level career
candidates. According to two senior officials, US&FCS received input from the State
Department in designing its exam process.

US&FCS officials indicated that the purpose of an internal assessment in 1995 was to allow
lateral entry for candidates from Domestic Operations. This assessment was during the early
stages of the Commercial Service Integration initiative, which began in spring 1995. Two formal
objectives of the integration initiative were to adopt the foreign service system for all senior field
positions--domestic and overseas--and to convert all senior domestic field positions from the
Civil Service personnel system to the Foreign Service personnel system as they became vacant.

On occasion, US&FCS allowed employees to transfer from Domestic Operations to the foreign
service even before the integration program and used assessment panels before the integration
program as early as 1988.




        3
          Evaluation of U.S. and Foreign Commercial Service Management of the Foreign Service Personnel
System and Resource Allocation Methodology, Report Number IRM-4539-2-0001, March 1992, page 9.

                                                    8
U.S. Department of Commerce                                                    Final Report BTD-10829
Office of Inspector General                                                            September 1999


According to one official, the main difference between the 1995 assessment panel and the
previous panels was that US&FCS actively sought the skills of domestic trade specialists.

Still No Formal Recruitment Policy

In a 1991 OIG audit report,4 we recommended that the Director General develop and implement a
formal mid-level career candidate recruitment policy that includes a clear statement on the
candidate selection process. During this review, US&FCS undertook a career candidate
recruitment at the lower entry level. Still, US&FCS officials were unable to provide us with a
copy of a formal recruitment policy for any level. In addition, 75 foreign service officers (30
percent) responding to our questionnaire indicated that they did not sufficiently understand the
US&FCS recruitment policy. To preclude any perception that US&FCS may not follow the rank
order process, we believe that a formal career candidate recruitment policy should be developed
and implemented.

B.     Changes needed in assignments and bidding process

The assignment records of some FSOs indicated that under the assignments and bidding system,
the needs of US&FCS have not always received first priority. Instead, it appeared that officers’
preferences were generally the determining factor in assignment decisions. We found that some
senior officers had never served at a hardship post, and some officers had not served in a
domestic assignment since their initial overseas tour. These conditions can be attributed to the
lack of a process that required officers to periodically serve in hardship posts and that adhered to
the guidelines in the Foreign Service Act of 1980 regarding domestic assignments.

Fifteen-Year Guideline Not Followed

The Foreign Service Act of 1980 states:

       “Consistent with the needs of the Service, the Secretary shall seek to assign each
       career member of the Service who is a citizen of the United States to duty within
       the United States at least once during each period of fifteen years that the member
       is in the Service.”




       4
         Management of Foreign Service Personnel Operations, Report Number TTD-4229-2-0001,
December 1991, page 9.

                                                  9
U.S. Department of Commerce                                                  Final Report BTD-10829
Office of Inspector General                                                          September 1999


While this statement does not seem to impose a rigid requirement, it does appear that the
Congress saw a benefit in having members of the foreign service serve in the United States at
least once every 15 years.

In our 1992 OIG inspection report5, we found that the US&FCS was faced with the problem of
finding meaningful domestic assignments for a large number of foreign service officers who
would run up against the 15-year guideline. At that time, US&FCS had not developed a formal
rotation system to address this problem. US&FCS officials acknowledged the problem and
indicated that they were pursuing solutions.

Unfortunately, we found that the problem persists. Currently, a total of 22 FSOs, or about 1 of
every 10 FSOs overseas, have served 15 years overseas without a domestic assignment.
Currently, there are 34 FSOs in domestic assignments, 12 at headquarters and 22 in Domestic
Operations. These comprise about 14 percent of 241 FSOs worldwide. There are only 15
designated foreign service positions in Domestic Operations for FSOs requesting a domestic
assignment. Also, several officers indicated that certain designated foreign service positions in
Domestic Operations are generally not bid on by FSOs because the duties and responsibilities are
not viewed as “career-enhancing.”

FSOs can also be assigned to other civil service positions. However, as noted in a prior OIG audit
report,6 assigning foreign service officers to vacant civil service positions is inefficient because
management cannot plan the assignments, and the practice interferes with the promotion
potential of the civil service employees. Of the 18 FSOs assigned to Domestic Operations, 11
were in designated foreign service positions and 7 in civil service slots.

As part of a proposed reorganization, now awaiting Congressional approval, it is our
understanding that staffing levels in US&FCS headquarters will be downsized by as much as 28
positions, by limiting the number of commercial service officers in Washington to four regional
director positions. The American Foreign Service Association, the collective bargaining unit for
FSOs, is concerned about this trend to reduce FSO positions at headquarters. In AFSA’s
opinion, the field knowledge gained from FSOs’ overseas experiences can be an invaluable
contribution to the US&FCS headquarters operation.




       5
           Report Number IRM-4539-2-0001, page 12.

       6
        Improvements Needed in the Management of US&FCS Domestic Personnel Operations, Report Number
TTD-4343-2-0001, March 1992, page 5.

                                                     10
U.S. Department of Commerce                                                 Final Report BTD-10829
Office of Inspector General                                                         September 1999


We understand the intent of this proposal is to increase the number of commercial officers in the
field. However, the reduction of officers at headquarters and the significant number of FSOs
who will have exceeded the 15-year period by the end of their current tours will make it more
difficult, if not impossible, for US&FCS to adhere to the 15-year guideline of the Foreign Service
Act. It is important to note that other foreign service organizations have about three times the
percentage of foreign service officers in domestic assignments. Figure 6 compares the percentage
of foreign service personnel assigned domestically for US&FCS and other foreign affairs agencies
in fiscal year 1998.




US&FCS management has recently proposed new guidelines that may help improve the bidding
process. The new guidelines would require an officer who has not served in a domestic
assignment in the past two tours, including the current tour, to submit bids on at least two
domestic assignments. In view of ITA’s proposed reorganization plan, however, we believe that
US&FCS will continue to have difficulty adhering to the 15-year guideline despite the new
bidding guidelines.

Hardship Assignments Difficult to Fill

At the time of our review, US&FCS considered 51 of its 127 foreign posts to be hardship posts.
According to US&FCS officials, certain positions in hardship posts are seldom bid on by officers
of rank equal to the position’s rank. Instead, the assignments panel has depended on bids by
officers of rank one or two grades below the position’s rank. In April 1998, 22 of 45 vacant
officer positions were in hardship posts. Eight of those vacant hardship posts were in countries
ranked by US&FCS as having the highest overall opportunity for U.S. businesses, although 3 of
those positions had individuals assigned or en route. In responding to our survey questionnaire,

                                               11
U.S. Department of Commerce                                                   Final Report BTD-10829
Office of Inspector General                                                           September 1999


foreign service officers expressed concern about the assignment process. They do not
understand how decisions are made and believe that the process should be more clearly defined.
Over 50 percent of the FSOs responding to our survey questionnaire expressed concern about
the assignments process, citing the lack of transparency as a basis for their skepticism. Several
officials suggested that the assignments process was too political and indicated that officers
posted at headquarters always get the plum assignments.

The new guidelines that US&FCS management has proposed for the assignment and bidding
process would also require an officer who has not served in a hardship post in the past two tours,
including the current tour, to submit bids on at least two hardship assignments. In addition, at
least 50 percent of an officer’s bids must be at the officer’s current grade. We believe that these
new bidding guidelines will (1) minimize vacancies at hardship posts and (2) help fill vacancies
with officers of appropriate rank.

C.     Curtailments not adequately documented

For foreign service officers, the number of years associated with an overseas tour of duty is
determined for individual posts by the Director General or equivalent management official. Two
exceptions to this general rule are initial tours for career candidates, for whom that tour may be
two years, and tours for non-career limited appointments, for whom the tour of duty is two years.
The regional directors and personnel staff in US&FCS recommend tour lengths for the posts to
the Director General, based in part on data such as the number of bidders for a post and the
number of requests for extensions at a post. The State Department’s tour for a post (three years
is the standard, with two years for a hardship post) is used as a reference.

Curtailments occur when FSOs’ tour-of-duty assignments are cut short. US&FCS’s small size
has limited its ability to fill unexpected vacancies or newly established positions, and curtailments
of officers’ existing tours of duty have been used to reassign those curtailed officers to the higher
priority vacant positions. In a November 1991 opinion, the Department’s Office of General
Counsel asserted that the legislation on limited appointments intended that such appointments be
used only sparingly.

Department Administrative Order 202-900, Foreign Service Personnel Management Manual,
Subchapter 100-1, states that the “Assignments Panel may recommend to the Director General
that an assignment be curtailed based upon compassionate reasons or needs of the Service.”
Section 5 of Operations Bulletin 93-53, Open Assignments Process, states that “Tour
curtailments are costly and inefficient, and normally are not granted unless for compassionate
reasons or compelling needs of the Service.”




                                                 12
U.S. Department of Commerce                                                   Final Report BTD-10829
Office of Inspector General                                                           September 1999


An OIG review in 19917 found that curtailments occurred in 16 percent of personnel assignments
made between January 1989 and August 1990. The review also found that the assignment
panel’s minutes did not adequately support or justify most of the tour curtailments.

During the current review, we found that 19 percent of 121 assignment actions made in FY 1996
had been curtailments. In FY 1997, 16 percent of 94 assignment actions were curtailments. In
the first ten months of FY 1998, 20 of 181 assignment actions, about 11 percent, were
curtailments (see Figure 7). In the opinion of a senior US&FCS official, curtailments could not
decrease in FYs 1996 and 1997 because of the FTE limitations imposed on US&FCS.




US&FCS officials consider the use of curtailments vital to their efforts to maintain a high level of
commercial expertise in high priority posts. Unlike other foreign service organizations, US&FCS
does not have a substantial percentage of officers in domestic assignments available for
assignment overseas. However, the continued use of curtailments is both costly and inefficient.
The recent easing of FTE limitations and increases in the number of career candidates hired
should enable US&FCS management to reduce further the number of curtailments in the future.

In our 1991 review,8 we recommended that the Director General adhere to the criteria for allowing
tour-of-duty curtailments. In its response, US&FCS management stated that it would improve
the documentation in the assignment panel minutes. However, we found that the minutes of the
assignment panel meetings still did not adequately document the reasons for curtailments. A
senior official involved in the assignments process was not even aware that a justification for each

       7
           Report Number TTD-4229-2-0001, page 5.

       8
           Report Number TTD-4229-2-0001, pages 9-10.

                                                    13
U.S. Department of Commerce                                                  Final Report BTD-10829
Office of Inspector General                                                          September 1999


curtailment was supposed to be in the minutes. Unless curtailments are adequately documented,
there is no assurance that the assignment process is not being abused.

D.     Recruitments should address language requirements

Section 702 of the Foreign Service Act of 1980 requires the establishment of “...foreign language
proficiency requirements for members of the Service who are to be assigned abroad in order that
foreign service posts abroad will be staffed by individuals having a useful knowledge of the
language or dialect common to the country in which the post is located.”

Section 5.02, “Language Designated Positions (LDPs),” of Subchapter 800-2 of the Foreign
Service Personnel Management Manual, states that:

       “The Director General...shall identify the positions that require foreign languages,
       and designate the required proficiency level for each. Only those positions where
       proficiency is essential, rather than merely helpful or convenient, will be language
       designated....Departmental policy is to fill LDPs with employees who have the
       required language proficiency.”

Waivers Granted to Fill Positions

There are two types of language waivers. According to Section 4.06, Waivers, “To assume a
language designated position, the employee must meet the required level of proficiency unless a
written waiver is granted by the Director General....” If an FSO’s language proficiency is below
that required for the position, either a refresher course may be authorized or a waiver for the
officer must be granted. A waiver also enables the officer to complete language training at the
post. From 1993 to 1998, there were 15 waivers granted to FSOs.

Another type of language waiver may be granted for a language-designated position (LDP). This
type of waiver removes the language designation from a position for one tour. From 1993 to
1998, there were 11 such waivers granted for LDPs.

US&FCS Also Adjusted Language Requirements

Besides language waivers, another method US&FCS uses to fill LDPs is to change a position’s
language proficiency requirements. According to a US&FCS official, changes in the proficiency
levels required for LDPs has been influenced by two factors. One factor is the availability of
qualified candidates. When no qualified career or career-candidate bidder meets the language
designation for a position, US&FCS may decrease the proficiency requirements to attract


                                                14
U.S. Department of Commerce                                                 Final Report BTD-10829
Office of Inspector General                                                         September 1999


qualified bidders. From 1993 until May 1998, there were 22 adjustments that decreased language
proficiency requirements.

A second factor contributing to changes in proficiency requirements for LDPs was the previous
constraint on the number of FSOs that US&FCS was allowed to recruit. Because of the
constraints imposed by a limited number of FSOs, US&FCS did not always have time to provide
language training to officers assigned to LDPs. Proficiency requirements for a number of these
positions were decreased to allow US&FCS to staff the posts as soon as possible. The recent
increase in FSOs has allowed US&FCS to provide language training to more officers and to
restore the proficiency requirements for some of those positions.

Over 50 percent of those FSOs responding to our survey questionnaire indicate that US&FCS
does not provide adequate language training. Over 25 percent of those responding suggest that
their work is hampered by a lack of language skills. Yet, as discussed below in more detail, a
training task force failed to address the perceived need for language training in its
recommendations.

We believe that officers serving in countries with language requirements who cannot adequately
speak the language cannot effectively communicate on behalf of US&FCS’s clientele, and
therefore, outreach efforts could be impacted. The number of language waivers and adjusted
language requirements for LDPs indicate that US&FCS has not recruited candidates with the
required language skills and has not invested in providing sufficient language training to the
candidates that have been recruited. We believe that US&FCS should adjust its recruitment
policies to recruit candidates with language proficiency for those language-designated positions
that have been difficult to fill.

E.     Diversity among commercial service officers is a major priority

In a recent memorandum to Commerce employees, the Secretary emphasized that “the
Commerce workforce must comprise motivated employees of superior caliber” and “the key to
attracting and maintaining that workforce is a Department that embraces diversity and equal
opportunity for all our employees, and stands firmly against any activity or behavior that is
discriminatory.” The Secretary further stated that the Department has a firm commitment to
promote true diversity and indicated that the Department has a range of specific initiatives
designed to promote diversity, including intern and mentor programs, family friendly workplace
policies, and practices that resolve workplace disputes at the lowest possible level.

At the time of our review, over 22 percent of US&FCS’s foreign service personnel were women
and about 11 percent were minorities. Women and minorities hold key positions in the foreign
service operation. For example, an Asian-American will become the Foreign Commercial

                                               15
U.S. Department of Commerce                                                  Final Report BTD-10829
Office of Inspector General                                                          September 1999


Service’s first Foreign Service Officer to serve as an Ambassador. In addition, the current
Deputy Assistant Secretary for International Operations is the first woman to reach the Minister
Counselor rank. Also, women have been assigned to direct some of the US&FCS’s high
visibility posts, such as the Deputy Assistant Secretary for Export Promotion Services.

US&FCS has taken a number of steps to ensure that diversity is given a top priority in its
personnel practices. For example, it is revising the recruitment process to include the
development of specialized outreach activities, including internship/fellowship programs and
other efforts to attract women and minorities. These are indicative of the high priority to which
the Director General has assigned the promotion of workforce diversity among officers.

F.     US&FCS should streamline personnel functions

In our 1991 audit report,9 the OIG recommended that the Director General establish automated
administrative personnel systems to improve the efficiency and effectiveness of the Office of
Foreign Service Personnel. Most of the assignment panel process has been automated as part of
the Position Assignment System in Human Resources Development, the other office responsible
for foreign service personnel. However, OFSP’s personnel system is still not fully automated.

Management Needs Accessible and Consistent Data

Although OFSP is the official personnel office for foreign service employees of US&FCS, HRD,
because of its automated database, has provided personnel data in response to OIG and
congressional inquiries. According to US&FCS officials, OFSP tracks employees only after they
are officially hired. HRD’s database, on the other hand, includes not only current employees but
also prospective employees who have been tentatively assigned to positions, pending security
and medical clearances. Thus, during any period when prospective employees are being
processed, personnel data from OFSP and HRD will not be consistent, i.e., HRD’s data will
indicate more employees since it includes prospective as well as current employees. During our
survey, we found that data received from HRD and OFSP, in response to specific questions,
generally was not consistent.

One effect of OFSP’s not having an automated system is that data on US&FCS foreign service
personnel has been inconsistent over time. For example, data for past fiscal years, as provided to




       9
           Report Number TTD-4229-2-0001, page 21.

                                                     16
U.S. Department of Commerce                                                           Final Report BTD-10829
Office of Inspector General                                                                   September 1999


us, did not consistently agree with data published in a March 1997 Senate subcommittee hearing
report.10 This data concerned the number of FSOs, administrative staff, and FSNs overseas.
Another effect of OFSP’s not having an automated system is that the effort needed to provide
data is an inefficient use of US&FCS resources. OFSP had to exert great manual effort to
respond to our requests for data and was not always able to explain discrepancies in the data
provided.

We believe that an automated administrative personnel system would enable OFSP to easily
maintain, access, and report accurate data.

Potential to Combine Personnel Functions Still Exists

In a July 1996 audit report,11we recommended that the Under Secretary for International Trade
consolidate certain human resource functions in one unit to service both foreign service and civil
service employees. Under the consolidation then recommended, unique functions, such as
assignment panels, selection boards, and commissioning and tenure boards, would be retained in
US&FCS. For that report, we had found that US&FCS, ITA, and the Department maintain
personnel offices that provide a complete range of similar services, while the unique nature of the
foreign service personnel system and regulations requires US&FCS to maintain a staff to meet
those demands. We concluded at that time that such a consolidation would result in a 25-percent
reduction of staff devoted to such functions at ITA and US&FCS, with a two-year net dollar
savings of $650,000. ITA generally agreed that the consolidation would result in personnel and
dollar savings, but to our knowledge, has yet to implement the recommendation. Hence, we
reiterate the need for ITA and US&FCS to explore the consolidation of personnel functions that
are common to foreign and civil service personnel.

G.      Improved performance measures needed

US&FCS management has not yet defined performance measures for its foreign service
personnel system that would comply with the Government Performance and Results Act of 1993.
Such measures would enable management to better evaluate the efficiency and effectiveness of
its foreign service personnel system over time. In addition, US&FCS has not developed a
strategic plan, including specific goals. The Results Act specifies that an agency’s annual


        10
           Hearings Before a Subcommittee of the Committee on Appropriations, United States Senate, One
Hundred Fifth Congress, First Session, on H.R.2267/S.1022 (FY 1998 appropriation hearings held on March 13,
1997).

        11
           Administrative Activities Should Be Further Streamlined, Report Number TID-7325-7-0001, July 1996,
pages 11-13.

                                                      17
U.S. Department of Commerce                                                   Final Report BTD-10829
Office of Inspector General                                                           September 1999


performance goals should define an objective, measurable target level of performance for each
program activity. ITA, including US&FCS, is developing and implementing a performance
measurement system applicable to its major programs. However, US&FCS should also establish
performance goals that specifically define the results it expects its personnel operations to achieve
and performance measures that determine the level of productivity and quality. Management
should develop and implement procedures for collecting and reporting these performance
measures.

H.     Limited appointments still needed

Limited appointees are persons from the private sector or non-career officers from the federal
government who are assigned overseas for a limited time. The Foreign Service Personnel
Management Manual, Subchapter 100-2, Section 3, states that:

       “Noncareer limited appointments shall be used to meet overseas staffing
       requirements, only in those instances when it will not undermine the career
       structure of the Foreign Service personnel system....An applicant for noncareer
       appointment must meet the qualification requirements for the positions, including
       any language requirement, at the time of application.”

US&FCS primarily uses limited appointments to overseas positions for which career officers are
not readily available. However, limited appointments as a percentage of US&FCS foreign
positions have declined from 15.4 percent FY 1992 to 9.6 percent as of April 1998. US&FCS
officials believe that the use of limited appointments under the present circumstances is vital to
the overall success of the U.S. & Foreign Commercial Service. Among other reasons, limited
appointments permit US&FCS management to respond to rapidly changing world market
conditions by providing an additional resource base. Until US&FCS can increase its reserve of
FSOs in domestic assignments, limited appointments offer the flexibility US&FCS needs to staff
an effective worldwide network of field offices.

A prior OIG report12 recommended that the Director General ensure that the assignment panel
fully and clearly document its justification for all limited appointment assignments, that the
documentation include a statement that there were no career officers available, and that the
person appointed was the best qualified. US&FCS prepares a “Certificate of Need for Limited
Appointment” for each such appointment. From October 1996 to April 1998, most certificates
listed the reason for granting a limited appointment as “No qualified FCS career or
career candidate officer is available for assignment.”


       12
            Report Number TTD-4229-2-0001, page 9.

                                                     18
U.S. Department of Commerce                                                 Final Report BTD-10829
Office of Inspector General                                                         September 1999


We believe that limited appointments permit US&FCS management greater flexibility to respond
quickly to rapidly changing conditions of world markets. FSOs responding to our survey
questionnaire overwhelmingly support the use of limited appointments to enhance export
promotion efforts. Without the flexibility to use this resource, US&FCS could experience
serious staffing deficiencies in certain posts. However, recent increases in the number of career
candidates hired should enable US&FCS to rely less on limited appointments in the future.

I.     Training task force led to new institute,
       but language needs not addressed

Lack of adequate training for foreign service officers has long been a concern of the OIG and the
US&FCS staff. In response to our survey questionnaire, foreign service officers were almost
unanimous in their concern about inadequate training. US&FCS officials responded to this
concern by establishing a training task force. The task force distributed a worldwide survey by
electronic mail in January 1998, to which over 200 US&FCS employees responded, including
FSNs and employees in Domestic Operations. In addition, seven focus groups-- comprised of
deputy assistant secretaries, senior commercial officers, non-senior FSOs, U.S. Export Assistance
Center directors and managers, domestic trade specialists, headquarters trade specialists, and
FSNs--were established after the survey to augment the survey data. As a result, the task force
issued a report in February 1998 with 13 recommendations to improve training in US&FCS.

The recommendations in the report reflected the task force’s opinion on the need for an
integrated central training program, which should be closely linked to other US&FCS strategic
issues. The primary result of the task force’s work was the development of a core curriculum for
a new organization, the Commercial Service Institute, which has the potential to provide
continuing education for commercial officers. However, in its review, the task force did not
address certain training areas, including the language training needed by commercial officers (as
discussed above). US&FCS needs to ensure, through the Commercial Service Institute
curriculum and other vehicles, that officers have sufficient language training when assuming
language-designated positions.

J.     Changes in performance appraisal process recommended

Section 602 of the Foreign Service Act of 1980 states that:

       “The Secretary shall establish selection boards to evaluate the performance of
       members of the Senior Foreign Service and members of the Service assigned to a
       salary class in the Foreign Service Schedule. Selection boards shall, in accordance
       with precepts prescribed by the Secretary, rank the members of a salary class on
       the basis of relative performance and may make recommendations for (1)

                                                19
U.S. Department of Commerce                                                   Final Report BTD-10829
Office of Inspector General                                                           September 1999


       promotions...(2) awards of performance pay...(3) denials of within-class step
       increases...(4) offer or renewal of limited career extensions...and (5) such other
       actions as the Secretary may prescribe by regulation.”

According to Section 603 of the Act, recommendations and rankings by selection boards shall be
based upon records that include performance evaluation reports of supervisors. Section 603 also
states that “Precepts for selection boards shall include a description of the needs of the Service
for performance requirements, skills, and qualities, which are to be considered in
recommendations for promotion.”

AFSA Concerned About Appraisal Precepts

The American Foreign Service Association is the “worldwide bargaining unit of all Foreign
Service employees employed by US&FCS, excluding all management officials, confidential
employees, employees engaged in personnel work in other than a purely clerical capacity, and
employees engaged in criminal or national security investigations or who audit the work of
individuals....” AFSA representatives expressed concern that there is no mention in the precepts
about the career integration program. In their opinion, FSOs serving in domestic positions
perform duties different from officers serving overseas, and those in domestic positions are at a
disadvantage when their performance is appraised because the precepts do not make allowance
for their different duties. This issue was also a concern of the overwhelming majority of FSOs
responding to our survey questionnaire. FSOs indicate that officers serving in domestic
assignments other than headquarters are rarely promoted, if ever, and rarely receive awards.
US&FCS management referred this issue to its Performance Management Task Force.

Task Force Recommended Improvements in Integration and Training

At the suggestion of the 1997 Selection Board, the then-acting Director General established a task
force on performance management to examine the performance appraisal process and analyze
the recommendations made by past boards. The 11-member task force included a mix of both
foreign and domestic employees, as well as individuals who have been rating officers,
selection board members, and rated employees. The acting director of OFSP and the senior
advisor of HRD were ex-officio members.

The task force identified three issues on which to concentrate their efforts: (1) determining
whether FSOs in domestic positions are at a disadvantage, (2) establishing the precepts for FSO
evaluations, and (3) improving the performance evaluation process and evaluation form. In
November 1998, the task force issued a report to the Director General containing
recommendations to (1) improve the transparency and fairness of the appraisal process,


                                                20
U.S. Department of Commerce                                                 Final Report BTD-10829
Office of Inspector General                                                         September 1999


(2) enhance the integration process to ensure that FSO’s serving in domestic assignments are not
disadvantaged in the promotion and awards process, (3) improve training and ensure adherence
to the performance management system, (4) improve the selection board process, and
(5) develop a mechanism to provide feedback to officers concerning their evaluation.

In addition, the task force recommended the need for an enhanced human resources unit that
could devote additional time and resources to personnel concerns such as training, career
development, career counseling, and enhanced assignment opportunities. Though not part of the
original task force recommendations, this latter recommendation was added because of concerns
expressed by officers during our review. These same concerns were expressed by officers
responding to our survey questionnaire. US&FCS has now established a timeline during FY
1999 for the implementation of the recommendations. US&FCS management should inform
officers of the implementation schedule for the task force recommendations, including changes to
the human resources functions.

K.     Recommendations

We recommend that the Assistant Secretary and Director General for the U.S. and Foreign
Commercial Service ensure that US&FCS:

1.     Develops and implements a formal career candidate recruitment policy.

2.     Implements new measures to meet the 15-year guideline for domestic assignments
       referred to in the Foreign Service Act, including new bidding guidelines regarding
       domestic tours and hardship posts.

3.     Provides detailed justifications for tour curtailments in the documentation of assignment
       panel decisions.

4.     Adjusts recruitment policies to attract candidates with language proficiency for those
       language-designated positions that have been difficult to fill.

5.     Implements an automated personnel system in the Office of Foreign Service Personnel.

6.     Explores, with ITA management, the consolidation of personnel functions that are
       common to the foreign and civil service personnel systems.

7.     Establishes performance goals and related performance measures, in accordance with the
       Government Performance and Results Act, that specifically define the results US&FCS
       expects its foreign service personnel system to achieve.

                                               21
U.S. Department of Commerce                                                    Final Report BTD-10829
Office of Inspector General                                                            September 1999


8.     Continues the practice of limited appointments, until the reserve of FSOs in domestic
       assignments is increased.

9.     Provides, through the course curriculum at the Commercial Service Institute or other
       vehicles, officers with sufficient training to meet the requirements of their job.

10.    Informs officers of the implementation schedule for the Performance Appraisal Task
       Force recommendations, including changes to the human resources functions.

L.     ITA Response

The International Trade Administration generally agreed with our recommendations and stated
that it has implemented or is developing plans to implement them. ITA suggested changes in
recommendations two, three, and eight. ITA’s responses to these three recommendations are
summarized below. A copy of ITA’s complete response is included as Appendix II.

Regarding recommendation two, ITA asked the OIG to revise the audit text as the Foreign
Service Act does not prescribe a “rule.” ITA stated that it has already implemented this
recommendation, and the current bid cycle is the second one to use ITA’s new bidding policy
that requires individuals to bid on domestic assignments.

Regarding recommendation three, ITA agreed that more detailed justification may be necessary
on curtailments, but it did not believe that these justifications should be part of the panel minutes,
which are widely distributed. ITA believed that justifications should be a part of the assignment
panel documentation, but should not be in the assignment panel minutes.

Regarding recommendation eight, ITA concurred strongly with the audit’s conclusion that
limited appointments provide a vital means and flexible tool to meet its staffing requirements
based on the needs of the service. However, ITA suggested omitting the latter part of the
recommendation–“until the reserve of FSOs in domestic assignments is increased.” ITA stated
that the reference to domestic assignments is simply one among a number of objectives that can
be served via use of the limited appointment authority.

M.     OIG Comments

We appreciate ITA’s positive response in implementing or developing plans to implement all
draft recommendations. Regarding ITA’s request for a change in the terminology used in
recommendation two, we have changed “rule” to “guideline.”




                                                 22
U.S. Department of Commerce                                             Final Report BTD-10829
Office of Inspector General                                                     September 1999


Regarding recommendation three, our only concern is that justification for assignment panel
decisions should be adequately documented. The action proposed by ITA meets the intent of
our recommendation, and we have changed this recommendation accordingly in the final report.

Regarding recommendation eight, ITA stated that the filling of domestic assignments is one
among a number of objectives that can be served via use of the limited appointment authority.
We view FSOs in domestic assignments as a resource base that US&FCS management can use to
respond to rapidly changing world market conditions. As stated in our report, other foreign
service organizations have about three times the percentage of FSOs in domestic assignments.
Our recommendation on this issue remains unchanged.




                                             23
U.S. Department of Commerce                                                         Final Report BTD-10829
Office of Inspector General                                                                 September 1999


II.     Economic Basis for Domestic Resource Allocation Under Review

US&FCS has used models based on economic measures as a basis for allocating its overseas and
domestic resources. The Overseas Resource Allocation Model (ORAM) identified countries, and
the Domestic Resource Allocation Model (DRAM) identified states and localities, with the
greatest potential for U.S. export growth. These models have been used as initial planning
methodologies. Non-economic variables, such as administration priorities, have then been
considered as part of the allocation process. US&FCS recently revised ORAM, and we believe
that it has developed a transparent, defensible methodology for assigning its overseas resources.
At the time of our review, the General Accounting Office initiated a review of US&FCS’s
allocation of domestic resources.

A.      US&FCS applied revised Overseas Resource Allocation Model to reallocate
        positions

A September 1997 OIG report13 contained two recommendations regarding the ORAM. One
recommendation was that the line between the two steps of the allocation decision-making
process–the model and management judgments–should be hardened by removing or limiting the
role subjective variables play within the model. The second recommendation was that necessary
management judgments should be made after the allocation model provides information about
relative export potential, and the judgments should be documented sufficiently so that the final
resource allocation decisions have clear, defensible justifications.

US&FCS entered into a contract with Standard and Poor’s DRI/McGraw Hill, under which the
firm revised the ORAM. The revised model consists exclusively of economic-based data, and
management judgment variables are now separate, as we recommended.

Review of Overseas Staffing Pattern Resulted in Shifts

In April 1998, US&FCS completed a review of its overseas officer staffing pattern, based on the
results of the updated ORAM and non-economic variables that have a direct impact on the
effectiveness of its overseas operations. According to a US&FCS memo, this was the first time a
top-to-bottom staffing review of all US&FCS’s overseas positions had been carried out since the
agency was transferred to the Department of Commerce from the Department of State in 1980.
According to a senior official, US&FCS plans to re-evaluate officer staffing every three years.




        13
           Recent Overseas Inspections Found US&FCS Delivering Services Effectively But Facing Internal
Constraints, Report Number IPE-9178, September 1997, page 25.

                                                    24
U.S. Department of Commerce                                                  Final Report BTD-10829
Office of Inspector General                                                          September 1999


In general, US&FCS shifted some officer positions away from the established markets of Europe
and into the emerging markets of Africa, Latin America, India (before sanctions), and the Newly
Independent States. The reduced number of American officers in Europe will be offset by a
small increase in the number of FSN positions. US&FCS staffing in Asia remained mostly
stable, except for some decreases in Japan and Indonesia. Few changes were made to
US&FCS’s Middle East posts, except for an increase in Israel. The multilateral development
banks, such as the European Bank for Reconstruction and Development, will gain staff.

We believe that the actions taken by US&FCS to reallocate resources overseas have effectively
met the intent of prior OIG recommendations. The economic model and the non-economic
variables used appear to be an effective method to allocate available resources overseas.

B.     Allocation of domestic resources under review

In Title II of the Export Enhancement Act of 1992, Congress granted the Trade Promotion
Coordinating Committee (TPCC) the legislative authority to undertake its goal of streamlining the
federal government’s export promotion activities. In its first report to the Congress in 1993,
TPCC recommended the establishment of “one-stop shops to provide local export communities
a single point of contact for all federal export promotion and finance programs” to improve the
effectiveness of federal export promotion services. Known as U.S. Export Assistance Centers
(USEACs), these offices would have representatives of US&FCS, the Small Business
Administration (SBA), and the Export-Import Bank of the United States (Ex-Im Bank) in areas
with the highest concentrations of potential export clients. US&FCS would be the primary
provider of export promotion and counseling services; SBA would promote and provide export
capital and finance counseling; and Ex-Im Bank would focus exclusively on trade finance for
exporters.

Domestic Resource Allocation Model Used in Original Site Selection

To implement the USEAC concept, US&FCS attempted to place its trade specialists nationwide
in those areas with the highest concentrations of potential export clients. ITA managers identified
those areas by using economic data from the 1987 Economic Census, such as the number of
service establishments, the number of manufacturing establishments, and the dollar volume of
manufacturing exports. US&FCS then used the DRAM to develop a state score–a proxy
measure of the relative export potential of one state in relation to others. This approach
attempted to determine objectively where to place resources.

US&FCS used the DRAM as a basis for site selection for its network of domestic field offices.
While export growth was the primary resource allocation principle, qualitative factors were also
considered in determining which states were best suited for regional or district offices. These

                                                25
U.S. Department of Commerce                                                   Final Report BTD-10829
Office of Inspector General                                                           September 1999


factors included promoting geographic diversity, providing the opportunity to leverage key trade
promotion resources with partners, and covering areas not serviced by existing field offices.

Recognizing that the federal government lacked the funding and resources necessary to fully staff
one-stop centers at all key locations, an interagency working group of US&FCS, SBA, and Ex-Im
Bank senior officials devised a “hub and spoke” approach to its domestic network. The “hubs,”
or regional U.S. Export Assistance Centers, would be those sites at which all three agencies
collocate. The “spokes,” or district Export Assistance Centers, would utilize the network of
existing US&FCS district and branch offices and would be linked operationally to the hubs.

According to a senior staff person in the Office of Domestic Operations, the original site selection
process, based on export demographics, was used in late 1994 and 1995 to establish the domestic
network. Since then, about 13 Export Assistance Centers have been added. In general, the
second series of site additions was in response to community demand. According to this official,
there was a lot of interest nationally in opening more sites, and the demand for sites has exceeded
what US&FCS is able to supply. As of July 1998, there were 19 U.S. Export Assistance Centers
(hubs) and 83 Export Assistance Centers (spokes).

The sites added tended to be near transportation hubs, such as Austin, Texas. In some cases,
satellite offices were added to existing metropolitan areas such as Chicago, Los Angeles, and San
Francisco if facilities were offered by state or local agencies. However, US&FCS officials were
unable to provide any documentation of the criteria used to select these additional sites.

General Accounting Office Initiates Review of US&FCS’s Allocation of Domestic Resources

During our review, the General Accounting Office initiated its own review of US&FCS’s network
of Export Assistance Centers. GAO will focus on the effectiveness of USEAC operations in
carrying out its export promotion activities and assess the role of non-federal export service
providers in areas served by U. S. Export Assistance Centers.

Because of the comprehensive review by the General Accounting Office, we do not plan to
evaluate this area now, but will continue to monitor GAO’s evaluation. However, we do believe
that in addition to an assessment of whether resources are appropriately allocated, the Director
General should use the information developed by the General Accounting Office to update the
economic data used for the Domestic Resource Allocation Model. The model should serve as the
objective analytical basis for the site selection process. We also believe the site selection process
should be fully documented.




                                                 26
U.S. Department of Commerce                                                 Final Report BTD-10829
Office of Inspector General                                                         September 1999


C.     Recommendation

We recommend that the Assistant Secretary and Director General for the U.S. and Foreign
Commercial Service ensure that US&FCS considers the findings of the General Accounting
Office audit to update the Domestic Resource Allocation Model for use as the objective analytical
basis for the site selection process. US&FCS should fully document the site selection process
resulting from the model.

D.     ITA Response

Concurring with the need to update its resource-allocation model, ITA stated that it is currently
revising this model. However, ITA believed that the statement in the report that “US&FCS
officials were unable to provide any documentation of the criteria used to select these additional
[satellite] sites” is misleading. ITA stated that decisions pertaining to USEAC and EAC locations
involved input from US&FCS senior management, state and local government officials, other
federal agencies, and members of Congress. In addition, ITA’s Office of Domestic Operations
management performed an analysis of all associated costs (rent, personnel, equipment, etc.) to
ensure that no additional expenses would be incurred as a result of office relocation.

ITA suggested that the sentence referenced be changed to: “Within the core areas designated by
the 1995 resource-placement model and after consulting with federal, state and local stakeholders,
US&FCS senior management opened USEACs and EACs based on the needs of the local
exporting community in areas that maximized the limited available US&FCS resources.”

E.     OIG Comments

While the criteria described may have been used to select the additional sites, US&FCS officials
were unable to provide any documentation of the criteria used, e.g., no documentation of input
from state and local government officials and other federal agencies and no documentation of
ITA’s analysis of all associated costs. Therefore, the sentence referenced is not changed in the
final report.




                                                27
U.S. Department of Commerce                                       Final Report BTD-10829
Office of Inspector General                                               September 1999

                                     APPENDIX I
                            OIG QUESTIONNAIRE ON THE
                        FOREIGN SERVICE PERSONNEL SYSTEM
                            Questions & Summary Responses

              Foreign Service Personnel Questions                   Answers
 (1) What region or domestic assignment are you currently   31% Europe
     serving in?                                            21% Western
                                                                 Hemisphere
                                                            21% East Asia and
                                                                 the Pacific
                                                            13% Domestic Office
                                                             6% Africa, Near East,
                                                                 South Asia
                                                             4% Headquarters
                                                             2% Newly
                                                                Independent States
                                                             2% Training
 (2) How many years do you have in the foreign service?     28%   0-5 yrs.
                                                            21%   6-10 yrs
                                                            20%   11-15 yrs
                                                            24%   16-20 yrs
                                                             7%   Over 20 years

 (3) How many years of trade promotion experience do you    21%   0-5 yrs.
     have?                                                  22%   6-10 yrs
                                                            21%   11-15 yrs.
                                                            24%   16-20 yrs
                                                            12%   Over 20 years
 (4) What is your current rank?                             25%   Senior Foreign
                                                                  Service
                                                            22%   FS-01
                                                            21%   FS-02
                                                            27%   FS-03
                                                             4%   FS-04
                                                             1%   FS-05
U.S. Department of Commerce                                             Final Report BTD-10829
Office of Inspector General                                                     September 1999


 (5) Are you a limited appointment employee?                      Yes    6%     No    94%

 (6) Do you believe that the use of limited appointments          69%    Yes
 enhances export promotion efforts?                               22%    No
                                                                  21%    Non-Response
 (7) Do you believe that limited appointments affect your         31%    Yes
 own career objectives?                                           67%    No
                                                                   2%    Non-Response

 (8) Do you understand how the US&FCS “assignments                Yes    68%    No    32%
 process” works?
 (9) Do you believe that the assignments process used by          30%    Yes
 US&FCS is fair and equitable for all foreign service officers?   57%    No
                                                                  14%    Non-Response

 (10) Do you believe that the assignments process achieves its    31%    Yes
 goal of placing “the most qualified officer” in each position?   53%    No
                                                                  16%    Non-Response
 (11) If answer to previous question is no, what could be done    Narrative answers; no
 better to achieve this goal?                                     summary compiled.

 (12) Do you understand the US&FCS policy for domestic            44%    Yes
 assignments?                                                     54%    No
                                                                   1%    Non-Response
 (13) Since you have been in the foreign service, have you        Yes    40%    No    60%
 served on a domestic assignment?
 (14) Have you bid on a headquarters’                 domestic    Yes    27%    No    73%
 assignment?
 (15) Have you bid on any other domestic                          Yes    35%    No    65%
 assignment?
 (16) Do you believe that foreign service officers in domestic    15%    Yes
 assignments and foreign service officers in overseas             65%    No
 assignments are treated equally by US&FCS officials when         20%    Non-Response
 being considered for promotions or awards?
 (17) Have you served in a hardship post?                         Yes    78%    No    22%

 (18) Do you understand the US&FCS policy regarding               Yes    83%    No    17%
 hardship assignments?
U.S. Department of Commerce                                           Final Report BTD-10829
Office of Inspector General                                                   September 1999


 (19) Do you agree with US&FCS policy regarding hardship        75%   Yes
 assignments?                                                   15%   No
                                                                10%   Non-Response

 (20) Do you agree with the use of directed assignments for     59%   Yes
 hard to fill assignments?                                      36%   No
                                                                 5%   Non-Response
 (21) Have you had an assignment curtailed?                     Yes   49%    No     51%

 (22) If answer to previous question is yes, was the            12% For medical reasons
 curtailment:                                                   25% At your request
                                                                63% For the good of the
                                                                     service
 (23) Are curtailments detrimental to the foreign service       21%   Yes
 process?                                                       63%   No
                                                                16%   Non-Response

 (24) Are you in a language-designated position?                Yes   60%      No 40%
 (25) If the answer to the previous question is yes, have you   Yes   88%      No 12%
 achieved the required language proficiency?
 (26) If the answer to the previous question is no, were you    Yes   83%      No 17%
 granted a waiver?
 (27) Do you believe that your work is hampered by a lack of    32%   Yes
 language skills?                                               59%   No
                                                                 9%   Non-Response

 (28) Do you believe that adequate language training is         42%   Yes
 provided?                                                      44%   No
                                                                14%   Non-Response
 (29) Do you understand US&FCS’s policy for recruitment?        48%   Yes
                                                                49%   No
                                                                 2%   Non-Response
 (30) Do you agree with US&FCS’s policy for recruitment?        38%   Yes
                                                                30%   No
                                                                32%   Non-Response
 (31) Do you believe that US&FCS’s use of assessment            54%   Yes
 panels has been handled in accordance with foreign service     15%   No
 regulations?                                                   31%   Non-Response
U.S. Department of Commerce                                               Final Report BTD-10829
Office of Inspector General                                                       September 1999


 (32) Does the current performance appraisal system                32%    Yes
 provide a fair and equitable assessment of each foreign           57%    No
 service officer’s performance?                                    11%    Non-Response
 (32) If answer to previous question is no, what                   Narrative answers; no
 improvements would you suggest?                                   summary compiled
 (34) Has US&FCS provided adequate training to carry out           43%    Yes
 your duties as a commercial officer?                              54%    No
                                                                    3%    Non-Response
 (35) Have you ever filed a grievance?                             19%    Yes
                                                                   80%    No
                                                                    1%    Non-Response
 (36) Do you believe the grievance process is handled              28%    Yes
 appropriately?                                                    23%    No
                                                                   48%    Non-Response
 (37) Do you understand the “up or out” policy for foreign         Yes    89%     No    11%
 service officers?
 (38) What do you most like about the US&FCS Foreign               Narrative answers; no
 Service Personnel System?                                         summary compiled.
 (39) What do you think needs to be improved about the             Narrative answers, no
 US&FCS Foreign Service Personnel System?                          summary compiled
 (40) What problems have you encountered with the                  Narrative answers, no
 US&FCS Foreign Service Personnel System?                          summary compiled
 (41) How would you rate the overall services provided by           9%    Excellent
 US&FCS’s Foreign Service Personnel System?                        35%    Above average
                                                                   40%    Average
                                                                    7%    Below average
                                                                   10%    Poor

Note: Some answers may total to more than 100 percent as a result of rounding.
